<html>
<title> - ALWAYS READY: THE COAST GUARD'S RESPONSE TO HURRICANE KATRINA</title>
<body><pre>[Senate Hearing 109-527]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-527
 
     ALWAYS READY: THE COAST GUARD'S RESPONSE TO HURRICANE KATRINA

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION




                               __________

                            NOVEMBER 9, 2005

                               __________

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs



                    U.S. GOVERNMENT PRINTING OFFICE
24-929                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                   SUSAN M. COLLINS, Maine, Chairman
TED STEVENS, Alaska                  JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
NORM COLEMAN, Minnesota              DANIEL K. AKAKA, Hawaii
TOM COBURN, Oklahoma                 THOMAS R. CARPER, Delaware
LINCOLN D. CHAFEE, Rhode Island      MARK DAYTON, Minnesota
ROBERT F. BENNETT, Utah              FRANK LAUTENBERG, New Jersey
PETE V. DOMENICI, New Mexico         MARK PRYOR, Arkansas
JOHN W. WARNER, Virginia

           Michael D. Bopp, Staff Director and Chief Counsel
                   David T. Flanagan, General Counsel
            Kathleen L. Kraninger, Professional Staff Member
      Joyce A. Rechtschaffen, Minority Staff Director and Counsel
                Robert F. Muse, Minority General Counsel
          Jason M. Yanussi, Minority Professional Staff Member
                  Trina Driessnack Tyrer, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Collins..............................................     1
    Senator Lieberman............................................     3
    Senator Dayton...............................................     5
    Senator Carper...............................................    19
Prepared statement:
    Senator Lautenberg...........................................    35

                               WITNESSES
                      Wednesday, November 9, 2005

Rear Admiral Robert F. Duncan, Commander, Eighth Coast Guard 
  District, U.S. Coast Guard.....................................     6
Captain Frank M. Paskewich, Commander, Coast Guard Sector New 
  Orleans, U.S. Coast Guard......................................     7
Captain Bruce C. Jones, Commanding Officer, Coast Guard Air 
  Station New Orleans, U.S. Coast Guard..........................     9

                     Alphabetical List of Witnesses

Duncan, Rear Admiral Robert F.:
    Testimony....................................................     6
    Prepared statement...........................................    42
Jones, Captain Bruce C.:
    Testimony....................................................     9
Paskewich, Captain Frank M.:
    Testimony....................................................     7

                                Appendix

Photographs submitted for the Record by Senator Collins..........    36
Responses to questions submitted for the Record from Rear Admiral 
  Duncan.........................................................    45


     ALWAYS READY: THE COAST GUARD'S RESPONSE TO HURRICANE KATRINA

                              ----------                              


                      WEDNESDAY, NOVEMBER 9, 2005

                                       U.S. Senate,
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:37 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Susan M. 
Collins, Chairman of the Committee, presiding.
    Present: Senators Collins, Lieberman, Carper, and Dayton.

             OPENING STATEMENT OF CHAIRMAN COLLINS

    Chairman Collins. The Committee will come to order.
    Today the Committee continues its investigation into the 
preparation for and response to Hurricane Katrina. Our focus 
this morning, at our sixth hearing, is on the performance of 
the U.S. Coast Guard before, during, and in the immediate 
aftermath of this disaster.
    Amidst a sea of failures across all levels of government, 
the Coast Guard stands out as a shining example of a mission 
accomplished through careful planning and outstanding 
execution. We must learn from the failures that this 
investigation has revealed, but we must also learn from its 
successes.
    The Coast Guard's extraordinary performance provides models 
for other agencies at all levels of government to emulate. In 
advance of this powerful storm, the Coast Guard anticipated the 
potential devastation and executed plans to relocate its 
personnel, aircraft, and vessels, including evacuating 18 small 
boat stations. Personnel and assets were moved to a 
predetermined inland military installation precisely so that 
they would not be trapped in flooded coastal stations and 
unable to respond.
    As a result of this foresight, the Coast Guard was able to 
launch extensive search and rescue operations even while 
Katrina continued to pound the Gulf Coast. Pollution response 
strike teams and teams to restore aids to navigation were 
readied, and they were deployed just as soon as conditions 
allowed.
    The result of this careful preparation is that, during the 
chaotic days and weeks immediately following the storm, the 
Coast Guard rescued or evacuated 33,544 people. In that same 
period, the Coast Guard responded to more than 1,100 pollution 
incidents with a total discharge of more than 7 million gallons 
of contaminants. And furthermore, the Coast Guard restored 39 
critical aids to navigation and repaired, replaced, or 
repositioned over 900 navigational aids to reopen the vital 
waterways of the Gulf Coast, New Orleans, and the Mississippi 
River.
    Most of us can only imagine how overwhelming the search and 
rescue mission in the Gulf States must have appeared in the 
hours and days following the storm. The photograph now being 
displayed shows how sections of New Orleans filled with water 
rushing out of the 17th Street Canal on the day of the 
storm.\1\
---------------------------------------------------------------------------
    \1\ The photographs displayed at the hearing by Senator Collins 
appear in the Appendix on pages 36 through 41.
---------------------------------------------------------------------------
    The next series of photos show how the Coast Guard used 
every means available to rescue people trapped by the flood 
waters. The first two show the Coast Guard rescues by 
helicopters.
    During Senator Lieberman's and my journey to the Gulf 
region, Coast Guard pilots described to us harrowing rescues 
amidst live power lines, whirling blades of other choppers, and 
frantic cries for help from attics and rooftops in the dark and 
stormy night. One of the pilots said to me, ``Senator Collins, 
I was trained to rescue people from the open sea. Here I was, 
rescuing people in an urban setting from rooftops with live 
power lines all around me.''
    It showed to me the ability of the Coast Guard to innovate, 
to use its training to react to new and extreme circumstances.
    The next photograph shows how the Coast Guard went house to 
house in small boats, looking for people who were trapped and 
needed assistance. Another photo shows how the Coast Guard 
commissioned a barge to bring people trapped from St. Bernard's 
Parish to safety.
    The Coast Guard's resourceful, sometimes remarkable, 
performance is noteworthy in its own right. But what makes it 
all the more extraordinary to me is that it occurred while more 
than 70 percent of Coast Guard personnel and their families 
stationed in the Gulf region were themselves initially 
displaced by the storm.
    Moreover, the Coast Guard was hampered by damage to its own 
facilities. The photo now being displayed shows the Coast Guard 
Station in Gulfport, Mississippi, which was devastated by the 
storm. Nevertheless, despite coping with personal losses and a 
destroyed headquarters, the Coast Guard persevered and carried 
out its mission.
    The Coast Guard's success story is one of both dedicated 
and courageous actions by front-line personnel and of effective 
leadership. Among the key questions I intend to explore today 
is how the Coast Guard's operational and command structure 
allowed individual components within the Agency to act so 
quickly without having to wait for specific instructions or 
permissions from up the chain of command.
    The contrast between the Coast Guard's situational 
awareness and the disconnect between the FEMA official on the 
ground and the Washington hierarchy for FEMA could not be a 
greater contrast. I think that is very instructive for us.
    I am also very interested to learn the extent to which the 
Coast Guard was able to act without having to wait until State 
and local officials asked for help.
    The three Coast Guard officials here today as witnesses 
occupy key positions in its operational and command structure. 
Their testimony will provide insights on how the Coast Guard 
way, exhibited in its motto, ``always ready,'' can be 
translated to other agencies across all levels of government.
    Senator Lieberman.

             OPENING STATEMENT OF SENATOR LIEBERMAN

    Senator Lieberman. Thanks very much, Madam Chairman, for 
convening the sixth in a series of hearings that this Committee 
is holding to examine the preparations for and response to 
Hurricane Katrina.
    Today I am happy to say we are going to examine the pre- 
and post-Katrina efforts of the U.S. Coast Guard. It strikes me 
that this is a good news story. Maybe looking around the room, 
I would reach the conclusion that good news does not draw a 
crowd. But it is important for us to focus on and to learn from 
and to certainly make this part of the public record.
    The fact is, in a local and regional experience, this 
Hurricane Katrina, which obviously was watched by the Nation 
and the world, the people of America had their confidence in 
their government's ability to protect them in time of crisis 
shaken. And it is, in that sense, even more important that we 
point out to them that there were agencies of their government 
that performed remarkably well, with competence and courage. 
And the U.S. Coast Guard was at the head of that list.
    I only give part of the reason for that to the fact that 
the Coast Guard Academy is located in Connecticut, and I say 
that with pride. I know that two of the three people before us 
were trained at the Academy.
    I do want to give a special welcome to Captain Paskewich, 
who hails from New London and I gather, for the record, whose 
mother lives in Groton. I do not want to put the other two of 
you at a disadvantage, but I am proud to welcome all three of 
you here obviously, and thank you for a job well done.
    As you gentlemen know, the modern Coast Guard is a 
combination of several historic agencies, including one that 
was known originally as the Life-Saving Service. In the hours 
and days after Katrina slammed into the Gulf Coast, the Coast 
Guard more than lived up to its predecessor's name. You really 
did save lives.
    The advance planning, quick decisionmaking, and round-the-
clock effort of the men and women under your command, 
gentlemen, led to the rescue, as has been said, of 33,000 
people in a matter of days, eight times the number of search 
and rescue missions you generally perform in 1 year. That is a 
record that deserves our praise and our gratitude.
    So we will ask today why was the Coast Guard able to 
perform at such a high standard when others in the Federal, 
State, and local governments did not?
    One of the most important reasons, clearly, is that you 
were prepared. As we are going to hear from you today, the 
units operating under Admiral Duncan began preparing for 
Hurricane Katrina several days before landfall. The week before 
the hurricane struck--and that was, of course, based on 
information that you were receiving from people who were 
charting the course of the hurricane--the week before the 
hurricane struck, helicopters based at the New Orleans Air 
Station were inspected in anticipation of heavy workload after 
the storm, even though I probably could not have imagined how 
heavy the workload would have been.
    One of the helicopters, I was really interested to learn, 
needed major repair, discovered in the lead up to landfall. And 
that repair was done in advance of the storm so that helicopter 
was able to be used, literally, in saving lives. Unable, 
probably, to have done that if it had not been inspected in 
advance of the hurricane.
    Another reason for the success of the Coast Guard in 
Hurricane Katrina, in my opinion, clearly was that you had 
plans, that you had continuity of operations plans in effect, 
blueprints to follow, that assumed in most cases a worst-case 
scenario, and that the three of you therefore implemented those 
plans effectively, evacuating--as Senator Collins said--your 
respective staffs and critical assets the weekend before 
Katrina when we were all hearing on television the rising 
anxiety of the National Weather Service about the intensity of 
this storm and yet not seeing other branches of government 
getting ready for what we were all being told on the TV.
    You removed those assets and established those remote 
command centers. Admiral Duncan had the additional foresight to 
request backup helicopters, increased the number of aircrew 
personnel and additional ships. All of these steps were taken, 
I repeat, well before Katrina hit land on Monday, August 29. 
And I must say, based on the record we have compiled so far, 
well before the Department of Homeland Security and Secretary 
Chertoff formally declared a so-called incident of national 
significance on Tuesday, August 30.
    The Guard was not only prepared, not only had plans, but of 
course executed its mission with courage and precision. And in 
this case, the victims of the hurricane benefited tremendously 
from that fact.
    In addition to its successful search and rescue missions, 
the Coast Guard--I do want to restate and emphasize--ensured 
that the Mississippi River was navigable as soon after the 
storm hit as possible in order to maintain free-flow of 
commerce on the river, helped restore navigational aids that 
were damaged or destroyed on the river and around the Gulf 
Coast, and worked with the Army Corps of Engineers and NOAA to 
make channels navigable again.
    Here is the really impressive fact. By the Friday after the 
Monday Hurricane Katrina hit, traffic was already back on those 
key waterways.
    The Guard also assisted with environmental hazards, 
identifying eight oil spills around New Orleans and working 
with other agencies and private contractors to clean them up. 
So the Coast Guard really was the model in this case.
    But there are still lessons to learn, and I know that you 
gentlemen agree with that. We want to ask some questions about 
information sharing, about how reports from the scene made 
their way up to the decisionmakers in Washington.
    Our staff's investigation finds that the Coast Guard sent 
its first written report that the levees in New Orleans had 
broken in the early morning hours of Tuesday, August 30. But we 
have also learned that Admiral Duncan had two phone 
conversations on Monday, August 29 with the Coast Guard 
Commandant in Washington. And we know that the Commandant had 
phone conversations with Deputy Homeland Security Secretary 
Jackson on Monday.
    So I am interested in learning about the contents of those 
conversations so we know whether the information flowed up. 
Because as was indicated here earlier in a hearing we held with 
Mr. Bahamonde of FEMA, Secretary Chertoff and Secretary 
Rumsfeld had indicated earlier that they did not know the 
levees had broken until Tuesday.
    Bottom line, the Coast Guard performed the way we wish all 
government agencies had performed, with speed, resourcefulness, 
efficiency, bravery, and effectiveness. You really set a model 
for the rest of the government, and I thank you for that.
    I also want you to know that I have written to the Director 
of OMB, Josh Bolton, asking for an additional $500 million for 
the Coast Guard to cover the costs related to your work in 
Katrina. I know that many of your facilities were damaged and 
some were completely ruined as that picture indicates. 
Obviously you have expenses related to the evacuation and 
temporary housing of your staffs, and for unanticipated fuel 
costs.
    Apparently, OMB plans to include $270 million for the Coast 
Guard in a supplemental Katrina request that will be made soon. 
I do not believe that is enough, and I am going to again urge 
the Administration to rethink that supplemental budget. I will 
ask you today about your needs.
    But most of all, thank you. Thank you very much.
    Thank you, Madam Chairman.
    Chairman Collins. Thank you. Senator Dayton, usually we do 
not have other Members make opening statements, but since you 
are the only other Member here today, if you would like to make 
some opening comments, feel free to do so.

              OPENING STATEMENT OF SENATOR DAYTON

    Senator Dayton. I think the two of you said it very well, 
and I join with them in commending you. And I will not hold the 
Connecticut connection against you. If you would like to check 
out more suitable quarters in Minnesota at any time, just 
contact me.
    Thank you.
    Chairman Collins. Thank you.
    I would now like to officially welcome the witnesses before 
us today. Our first witness, Coast Guard Rear Admiral Robert 
Duncan, assumed command of the Coast Guard's Eighth District in 
May 2003. While the Eighth District is headquartered in New 
Orleans, Admiral Duncan's area of responsibility covers 26 
States, more than 1,200 miles of coastline, and 10,300 miles of 
inland waterways from Florida to Mexico and from Louisiana to 
Minnesota, as it happens. He has served in the Coast Guard for 
more than 30 years.
    Admiral Duncan is joined today by two of his commanding 
officers, Captain Frank Paskewich and Captain Bruce Jones.
    Just 11 days before Katrina's landfall, Captain Paskewich 
took command of Sector New Orleans. The Captain arrived in New 
Orleans in July 2004 and has continued, since that time, to 
serve as the Captain of the Port, the Federal Maritime Security 
Coordinator, the Federal On-Scene Coordinator, and the Officer 
in Charge of Marine Inspection.
    Captain Bruce Jones is the Commander of Air Station New 
Orleans, where he has served since July 2004. In his 22 years 
in the Coast Guard, Captain Jones has been engaged in response 
efforts for a number of hurricanes, including Ivan, Dennis, and 
now Katrina and Rita. He has distinguished himself in the 
military aviation community and has received several awards for 
his flying skills.
    Gentlemen, I would like to ask you each to stand so that I 
can swear you in.
    Do you swear that the testimony you are about to give to 
the Committee will be the truth, the whole truth, and nothing 
but the truth, so help you, God?
    Admiral Duncan. I do.
    Captain Paskewich. I do.
    Captain Jones. I do.
    Chairman Collins. Thank you. You may be seated, and Admiral 
Duncan, we will begin with you.

   TESTIMONY OF REAR ADMIRAL ROBERT F. DUNCAN,\1\ COMMANDER, 
         EIGHTH COAST GUARD DISTRICT, U.S. COAST GUARD

    Admiral Duncan. Madam Chairman, Senator Lieberman, Senator 
Dayton, thank you so much for those very kind words and the 
opportunity to discuss the Eighth Coast Guard District's role 
in response to this incredible tragedy, Hurricane Katrina.
---------------------------------------------------------------------------
    \1\ The prepared statement of Admiral Duncan appears in the 
Appendix on page 42.
---------------------------------------------------------------------------
    I should note, in the picture that shows all of those 
people on the barge, every one of them has a personal flotation 
device, a life jacket. Some chose not to wear it, but they are 
all there. Just so you know that we follow that in all of our 
missions.
    And if my wife is to have her way, I think we are likely to 
find ourselves retired in some community where I will be 
shoveling snow 6 months of the year. So Mr. Dayton, I may give 
you a call, sir.
    My written statement covers our preparations for and 
approach to the unprecedented natural disaster. Essentially, 
plan seriously, test those plans, recognize it is a dynamic 
environment, and be open to modifying the plans to meet 
changing circumstances.
    Second, to establish a shared vision and a concept of 
operation in advance of the need. Make sure that that is well 
understood, anticipating that there will be lapses in 
communications in impacted areas.
    Survive the impact. Evacuate people, evacuate equipment, 
place them in places where they are safe. The balance here is 
moving them not too soon so that they are able to provide 
services up until it no longer makes sense. And then place them 
in positions where they will be able to respond immediately 
behind the storm, as we did in this case, and in Rita, and 
others.
    In the first few days, over 10 percent of the U.S. Coast 
Guard, about 40 percent of the Coast Guard helicopters, air 
crews from every Coast Guard Air Station, including Kodiak, 
Alaska, and Barbers Point in Cape Cod, hundreds of boats, major 
cutters, and specialty teams, which include active duty, 
reservists, civilian employees, and America's finest group of 
volunteers, the Coast Guard Auxiliary, from every part of this 
country converged on a devastated Gulf Coast. Together they 
saved, as you have indicated, 33,544 people, and not a small 
number of dogs by the way, contained or remediated hundreds of 
oil spills, eight major spills, on the Mississippi from New 
Orleans to the Gulf of Mexico. In that area alone, the total 
amount of oil spilled was about two-thirds of the oil spilled 
from the Exxon Valdez. Any one of those would have been 
national news at other times. Restored major ports and 
waterways.
    You may recall a footnote in the discussions at the time 
about the grain harvest. The U.S. grain harvest needed to move 
to world markets, and it moves through the Mississippi River 
and past New Orleans. Captain Paskewich's team was able to 
restore, as Senator Lieberman mentioned in some detail, the 
waterway to accommodate that grain shipment to international 
markets, itself a major accomplishment.
    The accomplishment I am most pleased to report to you today 
is that we did that with no injuries, aside from cuts and 
bruises to some very heroic rescue swimmers, to ourselves or 
anybody that we assisted. That is a record of which I am most 
proud.
    I am extremely proud of this team. I am most proud of the 
582 Coast Guard men and women and their families who lost their 
homes to Katrina, and another 69 a few weeks later who lost 
their homes to Rita, and who nonetheless continued to work full 
out to bring aid to others in the best tradition of our 
service.
    In doing this, we were part of a large team of Americans, 
and frankly some international sisters as well, who worked hard 
to bring relief to a vast devastated region. That need and that 
work continues today.
    The men and women of the Coast Guard deeply appreciate the 
kind words and the praise that has been offered today and at 
other times in reference to our work in this chamber. Our 
aspiration is, as always, to live up to our service's motto 
across all of our missions and be Semper Paratus.
    I would be happy to answer your questions.
    Chairman Collins. Thank you. Captain, do you have any 
formal statement that you would like to present?
    Captain Paskewich. Yes ma'am.
    Chairman Collins. Please proceed.

TESTIMONY OF CAPTAIN FRANK M. PASKEWICH, COMMANDER, COAST GUARD 
              SECTOR NEW ORLEANS, U.S. COAST GUARD

    Captain Paskewich. Madam Chairman, Committee Members, thank 
you for the opportunity to speak to you today to discuss Sector 
New Orleans' role in the response to Hurricane Katrina.
    As the Sector Commander overseeing more than 700 Coast 
Guard personnel, including 19 area subunits, I was responsible 
for ensuring we were prepared in advance to deal with five 
primary mission areas within the sector: Search and rescue, 
port and waterway safety, environmental protection, maritime 
salvage and debris removal from navigable waterways, and 
maritime homeland security.
    Our hurricane plan mission statement says it all, Sector 
New Orleans will provide search and rescue support, restore 
essential aids to navigation, respond to hazardous material 
spills, manage waterways including traffic and safety or 
security zones, provide transportation of victims, provide 
essential waterborne and airborne logistics support, deliver 
vital supplies and materials, provide access to storm damaged 
areas to key response personnel, and perform any and all acts 
necessary to rescue and aid persons and protect and save 
property.
    Our concept of operation is built around this mission 
statement. We took proactive measures in anticipation of 
Hurricane Katrina's impact 3 days before the storm, advising 
the port community, the maritime industry, and the public to 
take necessary precautions.
    Due to the storm's forecasted intensity, we established our 
alternate incident command post in Alexandria, Louisiana. 
Additionally, we evacuated our personnel from Venice, Grand 
Isle, Gulfport, and New Orleans, and prepositioned our patrol 
boats, river tenders, and our small boats and crews away from 
their exposed home ports.
    We dispersed these assets over a wide area to the north, 
east, and west of the intended track to ensure that we 
maintained the ability to surge back into the affected area.
    Additionally, we placed liaison officers at the Offices of 
Emergency Preparedness in New Orleans and Baton Rouge and 
coordinated with the maritime industry. By Sunday noon, we 
closed the Mississippi River to all vessel movements, ceased 
cargo operations, and sent out final advisories to the industry 
on necessary precautions to safeguard property.
    Within 2 hours of the storm's passage on Monday, and when 
it became safe to do so, our forces began to mobilize back to 
the affected area. Under Captain Bruce Jones' superb leadership 
as the on-scene commander for air search and rescue, air crews 
from Air Station New Orleans arrived on-scene to commence what 
became round-the-clock air rescues for a week-and-a-half 
straight.
    By Tuesday morning, our small boats, river tenders, and 
crews had remobilized back into the city to commence large-
scale urban search and rescue. And within 2 days, a Coast Guard 
medium endurance cutter was on-scene providing command and 
control and security presence on the river.
    The ability to rapidly respond back into the affected 
areas, integrate with other agencies, and surge additional 
forces was critical to our success and resulted in more than 
13,000 rescues and assists by small boats alone.
    In addition to the heroic efforts of Coast Guard personnel 
conducting search and rescue, we were well poised to 
effectively deal with our other Coast Guard missions, as well. 
Reopening the Mississippi River and Gulf Intercoastal Waterway 
became a national priority since this region is host to four of 
the Nation's top 11 ports. Eighty percent of the aids to 
navigation below New Orleans were destroyed, and numerous 
sunken or grounded barges and ships threatened the waterway.
    Through long-standing relationships with the maritime 
industry, pilots associations, Army Corps of Engineers, and 
NOAA, we were able to rapidly assess the impact to 255 miles of 
the Mississippi River and more than 200 miles of Gulf 
Intercoastal Waterway. Within 1 day, we reopened portions of 
the river and Gulf Intercoastal Waterway. And by Friday, 4 days 
after the storm, ocean-going ships were entering port. Our Aids 
to Navigation Teams went above and beyond reestablishing 
critical aids under arduous working conditions.
    Sector New Orleans responded to hundreds of pollution 
response reports, 134 minor oil spills, and 10 significant oil 
spills, totaling more than 8 million gallons of produced crude 
oil discharged from storage tanks, refineries, pipelines, and 
marine facilities across 130 miles of rivers, canals, bays, and 
adjacent sensitive wetlands. At the peak of the response, the 
Coast Guard coordinated the efforts of more than 750 pollution 
responders, deployed more than 30,000 feet of boom, and 
recovered more than 3.3 million gallons of free-floating oil.
    Additionally, the Coast Guard supervised several controlled 
burns of marshland to consume any remaining oil.
    Furthermore, Sector New Orleans has engaged in long-term 
salvage recovery to remove hundreds of sunken and grounded 
vessels which pose serious hazards to navigation or the 
environment. Within our unified command, we successfully 
brought together a team of experts from the private and public 
sector, including the Navy Supervisor of Salvage and members of 
the American Salvage Association, to complete this task.
    The Coast Guard's success in completing all of our assigned 
missions after one of the most devastating storms in the 
Nation's history was a result of well-honed first responder 
skills, our ability to pre-plan, and our multi-mission nature.
    Thank you for the opportunity to testify before you today. 
I will be happy to answer any questions you may have.
    Chairman Collins. Thank you. Captain Jones.

TESTIMONY OF CAPTAIN BRUCE C. JONES, COMMANDING OFFICER, COAST 
        GUARD AIR STATION NEW ORLEANS, U.S. COAST GUARD

    Captain Jones. Yes, ma'am, good morning. Madam Chairman and 
Committee Members, thank you for allowing me to speak with you 
about how a relatively small Coast Guard aviation force was 
able to save more lives in 7 days than it typically does in 
several years.
    Like all of our Gulf Coast units, Air Station New Orleans 
exercises its hurricane plans several times each season. We 
prepared for and responded to five named storms this year prior 
to Katrina. Our response crews witnessed firsthand their 
devastating power.
    Consequently, we take hurricane planning very seriously and 
were well-prepared as Katrina approached.
    As Katrina cleared New Orleans on August 29, prepositioned 
Coast Guard aircraft from New Orleans, Houston, and Mobile 
responded rapidly and were confronted by scenes of utter 
devastation with entire communities flattened or submerged and 
survivors waving for help from rooftops in every direction. 
Every available helicopter immediately began hoisting 
survivors, beginning when my unit's rescue swimmer, Laurence 
Nettles, was lowered from an H65 and threaded his way between 
tree limbs to reach a 4-month old infant, her mother, and 
grandmother stranded in deep flood waters in lower Plaquemines 
Parish at 2:50 that day.
    Coast Guard Air Stations around the country quickly 
dispatched aircraft and crews to join this historic rescue 
effort, and our Mobile and New Orleans units rapidly expanded 
to accommodate the influx of resources.
    Assisted by Department of Defense aircrews and coordinating 
our efforts with the Louisiana National Guard air operation, 
Coast Guard crews responded to distress in all Southeast 
Louisiana parishes, rural and urban communities, hospitals and 
schools, homes and floodwaters.
    Aircraft and crews were pushed to their limits, hoisting in 
obstacle-strewn environments, often on night vision goggles 
with unlit towers and other hazards, including power lines and 
trees. Our rescue swimmers struggled with steep slippery roofs, 
contaminated water, and debris. They hacked their way through 
roofs. They broke out windows to free survivors.
    And after the storm passed, sweltering 100-degree heat, 
high humidity, and no winds severely degraded our helicopters' 
performance and challenged our pilots' ability.
    Despite these many hazards and around-the-clock flight 
operations over 7 days, the Coast Guard using helicopters saved 
over 7,000 lives and assisted many thousands more by delivering 
critical food, water, and other supplies.
    As the Admiral noted, Coast Guard aircrew suffered no 
significant injury to themselves or to their survivors and no 
major aircraft mishap, a testament to their professionalism and 
to the Coast Guard's unsurpassed training, safety, maintenance, 
and standardization programs.
    Coast Guard personnel worked tirelessly and effectively 
without regard for their own needs, despite their facilities, 
and in many cases their own homes, being destroyed or severely 
damaged and with virtually all of our families dislocated and 
scattered around the country.
    Like the several hundred Coast Guard boat forces operating 
surface rescue missions, they had no power, no running water, 
or adequate rest. Yet they went back out again and again to 
save lives.
    A month later, our crews rushed in immediately behind 
another Category 5 hurricane, the strongest to have ever 
entered the Gulf of Mexico. The first helicopters to respond to 
Rita, Coast Guard air crews rescued 67 survivors from rooftops 
in 50 to 60 knot winds. And then they worked with local parish 
officials on the ground to ensure the victims were properly 
cared for.
    So many others deserve your attention and thanks. The men 
and women in our small boat crews working with local and State 
police, Fish and Wildlife, Red Cross, FEMA, out-of-state urban 
SAR teams, the National Guard, DOD, and others exhibited 
unnoticed courage and initiative day after day.
    Unheralded incident command post staff and liaison staff at 
numerous locations worked tirelessly to bring players from 
disparate organizations and agencies together, and they created 
teams which achieved results far exceeding the sum of their 
parts.
    Madam Chairman, the Coast Guard consistently achieves 
greater results than should reasonably be expected of any 
comparably sized and funded organization. We look forward to 
the opportunity to tell you how that is possible.
    As you seek solutions to improving national disaster 
response, I will leave you with this thought: What matters the 
most in a crisis is not the plan, it is leadership. It is not 
process, it is people. And it is not organizational charts, it 
is organizational culture.
    I thank you for the opportunity to answer any questions.
    Chairman Collins. Thank you, Captain.
    The final statements that you made are a perfect segue into 
my first question for the panel, and that is every agency had 
plans. Every agency had done exercises. Every agency knew that 
the hurricane was coming. Every agency had been warned that it 
was going to be a monster storm.
    What is it about the Coast Guard that enabled you to 
respond so much more effectively than many other agencies?
    I am not asking you to criticize other agencies, although 
frankly I would welcome hearing any criticisms, but what is it 
that is different about the Coast Guard?
    A disaster expert whom I met with earlier this week said 
that he felt that one of the problems with Louisiana and in New 
Orleans is that although there were plans, the plans were not 
followed. But what is it about the Coast Guard that allowed for 
an effective response?
    Admiral, we will start with you, and then I would like to 
just go down the panel.
    Admiral Duncan. Thank you. Madam Chairman.
    It is something I have thought about for some time now. I 
think our culture is one of service. We are attracted, as I 
think Senator Lieberman's point was, to life-saving. That is 
always our top priority. It remains that in any context.
    Over the years, we have adapted to other missions that the 
government has seen fit to give us to execute, and we have 
tried to do that with skill.
    What has emerged is a multi-mission organization where I 
think every Coast Guardman sees a role for himself, a personal 
role, in the success of the organization, in delivering 
services along a whole series of missions, and is used to 
shifting priorities from say fisheries enforcement to life-
saving in the middle of a flight or on a patrol.
    The idea that this is a full portfolio of missions that we 
are charged with executing and are trained to do those. I think 
we have an adaptive culture that says, right now September 11 
has happened. We are not going to do fisheries enforcement. We 
are going to surge everything to find out what this terrorism 
thing is all about and try to provide whatever assets, whatever 
service we can, to the event that is unfolding.
    When it turns out to be a hurricane of monstrous 
proportion, I think everybody in the organization feels that 
ability to have their hand on the tiller, if you will, to 
control the outcome, to really bring personal benefit to the 
event.
    In our case, we are familiar with hurricanes. We exercise 
before hurricane season. We typically have about a third 
turnover in personnel at the beginning of each year. It is a 
good opportunity for us to bring people into the culture, to 
understand what the threats are in the Gulf Coast, how we would 
deal with that, make sure they have their own plans for their 
families, to talk about those things, and to exercise our 
Continuity of Operations Plan in the event that we do need to 
maintain command and control in a remote location.
    We came very close to pulling the trigger on that, I came 
close to that, last September during Ivan. It was a very close 
call frankly, but we have every year sent a team up to make 
sure that the command center that we have in St. Louis was 
connected, the computers were up, that the phones were working, 
that the phone numbers were right, that the berthing was ready 
to receive people and ready to move.
    We did that this time. We actually left the area. And we 
have modified the plan to deal with exigencies. The plan does 
not call for a forward command element. Due to the nature of 
the storm and the impacted area, the anticipation that there 
were going to be communications lapses, it appeared to me a 
good idea to have a forward command element where I would 
remain forward, not in St. Louis, but connected with my Chief 
of Staff who ran the day-to-day operations of the District but 
allowed me to have an executive eye's view of unfolding events 
in the area that looked to be most challenged. I think that was 
helpful.
    I think the other speakers can talk about adaptations to 
the plan at their level, as well.
    But there was an understanding ahead of time what the 
priorities are. And it is written, we have a concept of 
operations. I called both sector commanders in advance of the 
storm, as is my practice, and I think every district commander 
got alignment verbally on what we were going to do, how we were 
going to survive the impact, stage our resources, come into the 
community afterwards. And if we never spoke or had difficulty 
speaking for several days, there was that understanding ahead 
of time.
    I also called each governor in advance of the storm and 
then as soon as the storm hit, and advised them of our 
preparations, what our intentions were. I made sure that we 
were in alignment with the governors' expectations. And of 
course, there is no argument over life-saving and restoration 
of channels. That appears to be very much in line with the 
governors' direction but it is appropriate to make that 
contact.
    I did that with Governor Blanco, I did that with Governor 
Barbour, and I did that with Governor Perry when Hurricane 
Katrina threatened Texas.
    So there is an active dialogue. I think individuals are 
used to taking responsibility or been given responsibility at a 
very early level in their career, are used to moving between 
missions and tooling up for whatever the requirements of the 
Nation are for the service.
    I think there is a real shared understanding of what needs 
to be done and an expectation they will be supported if they 
see something different that was not anticipated when they 
arrived, that they will be supported in carrying out the 
mission that they get when they get there.
    Chairman Collins. Thank you, but my time on this round is 
almost expired. If I could get brief answers from the other two 
captains, thank you.
    Captain Paskewich. Yes, ma'am.
    I think it begins with a comment I made about well-honed 
first responders. These are missions that we do every single 
day, search and rescue, response to collisions, response to oil 
spills.
    I maintain a 24-hour, 7-day-a-week watch center. I am not 
sure I can recall in the last 2 years actually making it 
through a night without getting a phone call about responding 
to a particular incident. We are trained to do that, and I 
think that is our strength. We respond, and it is ingrained in 
our culture.
    With respect to hurricane planning, we certainly take all 
hurricanes seriously, do lessons learned, and then retool our 
plan appropriately. After a near brush with Hurricane Ivan, we 
put together a tiger team to take a comprehensive look at our 
plan and made changes appropriately, which helped us in this 
particular situation.
    Chairman Collins. Thank you. Captain.
    Captain Jones. Ma'am, the only thing I could add to what 
the Captain and the Admiral have said is probably the human 
factor. We place a great emphasis on interagency coordination 
and working well with others.
    You put a Coast Guard lieutenant into a room with 
representatives of 20 different Federal agencies where there is 
a lot of activity going on but maybe not a lot of cohesion, the 
Coast Guard lieutenant will pull those people together, get a 
meeting going, and come up with a plan. That is what happened 
numerous times during Katrina.
    That is what we do every day, day in and day out. That is 
what Captain Paskewich's folks do in the maritime community, 
with maritime industry. We simply would not dream of not 
responding. If there is a possibility to use a Coast Guard 
asset or Coast Guard people to help out when people need 
assistance, we are going to find a way to do it. We are not 
going to wonder whether we have the authority to do it, we are 
just going to take action.
    Chairman Collins. Thank you. Senator Lieberman.
    Senator Lieberman. Thanks, Madam Chairman.
    I want to pick up on your questions. As I hear you answer, 
what I find very impressive is that you are obviously a 
hierarchical organization. And yet, consistent with the best of 
what we know of modern organizations, particularly the private 
sector, it seems to me you are very agile and, in some sense, 
not bureaucratic. You are problem oriented. And you have a 
willingness to break through to get the job done, which is the 
most important thing.
    And how we replicate that is an interesting challenge for 
us in other organizations.
    I just want to ask a few baseline questions about why you 
did so successfully. Admiral, let me just ask you quickly, 
under what authority was the Coast Guard acting in preparing 
for and responding to Hurricane Katrina?
    Admiral Duncan. Yes, sir and I apologize for taking so much 
time the last time. I did not realize it was 10 minutes for 
everybody.
    Senator Lieberman. No, go right ahead.
    Admiral Duncan. The succinct answer is 14 U.S. Code, 
specifically Section 88. Section 89 and 88, taken together, 
give us quite a number of authorities. And 88, which I have 
here, goes into a lot of detail about what we are authorized to 
do, and it is very expansive.
    We have the largest grant of law enforcement authority, I 
believe, in the Federal Government. We are, at the same time, a 
law-enforcement agency and an Armed Force.
    Senator Lieberman. What does law enforcement mean in this 
case, briefly?
    Admiral Duncan. Law enforcement is less significant, I 
think, in this case but to give us the authority. This is the 
first time that I am aware of that we were very concerned about 
safety of our life savers. So we did bring in force protection 
elements that were able to control crowds at marshaling 
stations, that were able to provide convoy support where 
necessary, those sorts of things.
    Senator Lieberman. But the Coast Guard does not share the 
concerns that the Department of Defense has about Posse 
Comitatus?
    Admiral Duncan. No, sir. Posse Comitatus, as you are aware 
sir, affects the DOD, specifically the Army and the Air Force 
and by policy the Navy. The Coast Guard, from its constitution, 
it is organic in statute. It is a law enforcement authority as 
well as an Armed Force. The restrictions on use of Armed Forces 
do not apply to the Coast Guard.
    Senator Lieberman. Got it.
    So as you began to get information about Hurricane Katrina, 
am I correct--let me just ask you--did you need to go to any 
other authority or person, I mean, within the government, to 
get authority to begin to implement and prepare as you did? In 
other words, do you need to get authority from the Secretary of 
Homeland Security or the President, as Commander-in-Chief?
    Admiral Duncan. I guess I am attracted to the line in the 
old movie ``that we do not need no stinking badges.'' It is a 
wonderful quote, and I guess it sort of underscores the 
culture.
    Senator Lieberman. That is a good line.
    I want the record to show that was not your statement. That 
was a quote.
    Admiral Duncan. No, sir, I am making my statement under 
oath. I am aware that, sir.
    No, sir. Not to be glib, truly we have the authority and 
exercise it on a daily basis. The difference here was the 
scale, rather than the mission. As Captain Jones indicated, we 
do life-saving. That is our statutory authority. We enforce 
fisheries offshore. We interact with foreign vessels.
    Senator Lieberman. This is my point and this is fascinating 
and very important. Not that I suppose you do not want every 
agency of the government to be able to do that, but you did not 
have to get a lot of check-offs. This is what you do. And when 
you had the indications that a hurricane was coming, you sprang 
into action.
    Admiral Duncan. To the contrary, sir, I think my job would 
be in jeopardy had I not taken those actions.
    Senator Lieberman. Am I correct that what was moving you to 
get ready was exactly what I referred to earlier, except maybe 
you were getting more detailed information. You were getting 
the weather reports that said that this hurricane was going to 
be a big one.
    Admiral Duncan. We had that view, sir, and we have had 
experience in the Gulf for quite some time now. We have worked 
with our partners in the community. We understand first, make 
sure that we remove potential targets. Captain Paskewich 
indicated that we interacted with those that could be targets, 
the commercial shipping community, button up the ports. Make 
sure that the ships at sea understand there is something 
coming. We broadcast----
    Senator Lieberman. So you were working on the days coming 
with the authorities that have to do with private shipping and 
the ports to make sure that----
    Admiral Duncan. Yes, sir. And to be specific, those are the 
Captain of the Port authorities that someone in the Sector 
Commander's position, as Captain Paskewich was, can use to 
prepare ports for a strike, and working with the pilots. There 
is 100-and-some-odd miles of river there that need a pilot.
    So working with those partners to control traffic.
    Senator Lieberman. You have ongoing relations with them?
    Admiral Duncan. Yes, sir.
    Senator Lieberman. How about other governmental agencies? 
Did you, in the days leading up to landfall of Katrina, have 
any interactions with FEMA?
    Admiral Duncan. At my level, I was aware in reviewing our 
plans, that we were providing support to FEMA, as we had in 
other contexts. Specifically, during Hurricane Ivan we had 
assisted FEMA in the Panhandle, the Florida Panhandle, for 
locating sites for their urban search and rescue teams, which 
are very effective units.
    Senator Lieberman. Sites them some to----
    Admiral Duncan. Sites for them to stage out of, to 
understand where they would be effective, how they would move 
into the area, provide support to them. We had done that in the 
Florida Panhandle not too long before.
    Senator Lieberman. How about in the days before Katrina? 
Was there interaction?
    Admiral Duncan. Yes, sir. The point I was hoping to make 
there was that we had a similar arrangement, and I put a check 
in the box in my mind that we had already contacted FEMA. FEMA 
had requested and we were going to be providing flights as soon 
as they were aviationally technically sound to get a FEMA 
representative in the air to do their survey for their 
purposes.
    Senator Lieberman. In fact we know, from Mr. Bahamonde's 
testimony, that he went up, I guess twice on that Monday, 
August 29, with the Coast Guard.
    Admiral Duncan. Yes, sir. I did not know his name but I did 
know that we were going to provide----
    Senator Lieberman. He went up with you, did he not, Captain 
Paskewich?
    Captain Paskewich. Yes, sir.
    Senator Lieberman. Was there any interaction with the 
Department of Defense, National Guard, or active military 
leading up to Katrina?
    Admiral Duncan. I would not say any formal interaction, no, 
sir. The National Guard is more present in the community on a 
regular basis so we know the National Guard pretty well, and 
they are taking their preparations, as well.
    Senator Lieberman. My time is gone, but I want to ask two 
quick questions.
    One is, did your plans for response to Hurricane Katrina 
assume that the levees would either be topped or broken? In 
other words, since most of what we saw was your rescue, was 
rescue because of flooding and not because of wind damage?
    Admiral Duncan. Yes, sir. The flooding was the difference 
in Katrina.
    We participated in the exercise Hurricane Pam the year 
before that did posit breaches in the levees. We were concerned 
about that. We were aware that New Orleans is largely under sea 
level. And that was part of our assessment, that we would be 
looking for those things.
    Now in my assessment flight on Monday, I was aware that 
there was substantial flooding throughout the city. But I am 
not sure that I could have made the connection that it was due 
to any particular injury to either overtopping or a breach in 
the levee system. The salient fact for me to use in my 
situational assessment was that we had massive flooding and 
needed to direct a response towards that.
    Senator Lieberman. Thanks.
    My time is past due, so I will come back and ask more 
questions in the second round. Thank you. That was very 
helpful.
    Chairman Collins. Thank you. Senator Dayton.
    Senator Dayton. Thank you, Madam Chairman.
    Thank you again. It is even more extraordinary hearing you 
recount the heroism that was involved and the dedication.
    Did I understand you correctly when you said that the 
equivalent of two-thirds of the Valdez oil spill occurred at 
various sites?
    Admiral Duncan. Yes, sir. Taken in total, I understand 11 
million gallons was discharged in the Exxon Valdez. And I 
believe the number we had was about 7.9 million gallons in 
this.
    Senator Dayton. What caused those spills and what can be 
done in the future? Because as the Chairman said, there was 
forewarning of this. So is it possible to prevent something 
like that happening in the future?
    Admiral Duncan. Certainly, that is the sort of thing that 
we will be looking at to see--we are going to scrub every 
aspect of our response and others in the area to see how we 
make it a more hardened system and a more efficient responsive 
system.
    The short answer, if I can, is breaches in tanks, tanks, 
and disrupted pipelines. There was at least one occasion where 
a pickup truck was floating, and when the water went down it 
landed on a pipeline and ruptured the pipeline, sort of a 
secondary injury to the system.
    Captain Paskewich can go into great deal about all of 
those.
    Senator Dayton. I will wait until you have made the 
assessment of what can be done because hindsight is 20/20 and 
in something of that magnitude there is going to be 
unforeseeable consequences. But it would be good to know what 
can be done and make sure somebody has the authority to do 
whatever is possibly necessary to prevent those kind of 
occurrences in the future.
    Admiral Duncan. Yes, sir. I can point you to the offshore 
environment and say that the thousands of platforms that are 
active in the Gulf of Mexico are shut in. They shut in their 
production to mitigate potential disruption out there.
    So those are the sorts of things I think they would be 
looking at.
    Senator Dayton. Good.
    You also mentioned there were barges or other boats or 
whatever that were blocking part of the passageway down the 
Mississippi into the Gulf? Again, who has the authority to 
clear out, or is there necessary additional authority to clear 
out before a storm like this occurs, so that again the few 
cannot block the many subsequently?
    Admiral Duncan. Let me ask Captain Paskewich to answer 
that, sir.
    Captain Paskewich. Sir, as Commanding Officer of Sector New 
Orleans, two of the hats that I wear--as Federal On-Scene 
Coordinator and Captain of the Port--give me broad authority to 
basically take the appropriate actions along the river, along 
the navigable waterways. So there was certainly hundreds of 
barges which had gone aground and/or sank, ships which had 
pushed up on the levees. And there were oil spills, as well.
    We did not wait. Essentially, we went out and took the 
action that we needed to bring in the right contractors to 
exercise leverage against the owners of the vessels and have 
them do an immediate removal of that particular asset.
    Senator Dayton. Did you get cooperation in the hours 
leading up to the storm, in terms of clearing as many of those 
kind of barges and others out of the possible path?
    Captain Paskewich. Pre-storm, we had a team in our 
Alexandria office made up of members from the American Salvage 
Association, the big operators, the ones with the heavy lift 
equipment, in advance, in anticipation that we could 
potentially have severe impact. It certainly panned out that 
that occurred.
    Senator Dayton. So my question is do you, or somebody, have 
the authority 48 hours ahead or whatever it takes--I realize 
barges move quite slowly--to get them to clear out of the way 
in advance?
    Captain Paskewich. As part of our pre-port requirements, we 
have different port conditions. And I send out broadcasts. I 
commenced the first broadcast that Thursday, advising the 
industry that a potential storm was on its way. And as the 
storm crept closer and closer, I would start implementing our 
port conditions, Whiskey, X-ray, Yankee, Zulu, depending on how 
close--the time within 72, 48, 24, and 12 hours.
    Each one of those tells them a condition that the hurricane 
is getting close. And within my broadcast I say you should 
either leave now or if you are going to stay, you should hunker 
down and double up the lines, move to a safe mooring, take 
extra precautions, and advise them that by Sunday we would 
probably be shutting everything down.
    Senator Dayton. I have only got a minute left so I have one 
more question I want to ask. I have to leave because I have 
some Minnesotans testifying at another hearing. Thank you, I 
apologize.
    How do you contrast your response and the effectiveness of 
it with other agencies? You talked about leadership and people 
and culture. What did you see lacking in the response, 
efficiency of response of other agencies, Federal in 
particular?
    Admiral Duncan. I am going to dodge that question 
respectfully, sir.
    I feel comfortable talking about our culture and what we 
did. Honestly, I can say with true candor, everybody I met 
downrange was seriously concerned about the suffering and 
trying to provide relief. Some were more effective than others. 
But I do not think I saw anyone that I would nominate as a bad 
player, sir.
    Senator Dayton. In terms of communications between Federal 
agencies, State and local, it seems that there is this almost 
tension that is irresolvable in the moment of crisis between 
who has the authority to do what. Is that a problem we need to 
address for the future or not?
    Admiral Duncan. I do not think so. We exercise regularly 
with others. We work with Fish and Wildlife, people who did a 
wonderful job by the way, Louisiana Fish and Wildlife folks 
worked very closely with our boat people, our boat forces. We 
have those kind of arrangements.
    I will offer just one observation. We were asked a couple 
of years ago to fly on Mardi Gras parades. The local police had 
asked to do that. Mardi Gras is a very large celebration, and 
it lasts for about 2 weeks. There are many parades. And they 
asked us to fly the parade routes on the major routes.
    And I authorized that for a couple of reasons. One, because 
it gave us familiarity with the city. It gave us familiarity 
with the police organization. We took a police officer with us 
in Captain Jones' helicopters.
    And in the event--and frankly, if we saw a Homeland 
Security event that was attracted by a large gathering of 
Americans for a celebration, we were on scene. We were there. 
We had people in the air. We had connectivity with the local 
folks who would be responding on the ground.
    As an aside, they told me that that cut street crime along 
the parade route by a substantial amount. So we have done that 
for several years now.
    I think that is a significant factor. Coast Guard air crews 
in New Orleans knew where Lee Circle was. They knew the Ninth 
Ward. They knew how to get from one place to another. They knew 
how to work with local police.
    So those types of relationships that are built up in 
advance of a desperate situation, I think stand us in good 
stead. And it is probably not the sort of thing that can be 
written into a plan. It is a kind of culture that says we are 
working with people that we may need to work very closely with 
in a very significant event.
    Senator Dayton. Thank you again. Thank you, Madam Chairman.
    Chairman Collins. Thank you. Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thank you, Madam Chairman.
    Let me preface my questions by saying when I was a member 
of the U.S. House of Representatives for 10 years, I was 
privileged to serve on the Coast Guard Subcommittee of what was 
then the Merchant Marine and Fisheries Committee. I entered my 
time on that Committee as an old Navy guy with a good deal of 
respect for the Coast Guard, and when I left 10 years later, I 
had an even greater respect. I have been a fan of the work that 
you and the folks that you serve with have done for a long 
time, probably never more than in the wake of Katrina.
    Let me say, we have had a whole series of hearings on 
Katrina-related issues. I just came from a hearing a few 
minutes ago on the Environment and Public Works Committee. 
Sometimes I say it seems like Katrina all day, all night as we 
try to figure out what went right, what went wrong.
    Let me just start off by asking, what question or what 
issue--what have we asked you to answer, as a Committee, and if 
you just sort of take it one at a time. Let me start with you, 
Admiral. What have we asked you to answer today?
    Admiral Duncan. What have you asked me----
    Senator Carper. What questions have you been asked? Usually 
when we have a hearing, we say, these are the questions we 
would like for you to address in your testimony. What have been 
those questions?
    Admiral Duncan. Yes, sir. My understanding is that the 
Committee's focus was that many things went right, many things 
went wrong during Katrina, and the focus of this Committee is 
semper paratus, what did the Coast Guard do? How has their 
culture allowed them to achieve what success we were able to 
achieve and is it something that can be distilled and 
recognized--our interactions with others in the community, and 
generally, you get a better understanding of the details of the 
work, the rescue and the restoration that went on in our 
sector, the maritime sector, in this historic event.
    Senator Carper. It would be helpful to me, just take a 
minute or two in your own words and just answer that question 
again.
    Admiral Duncan. Yes, sir. I think that in our case, as a 
cultural event, the culture is one of how can we do things 
rather than what is required of us? Where do we bring talents 
that can be best used to meet the challenge? We have a very 
broad charter in the statute. It gives us many 
responsibilities, and I think that allows us to look at things 
in different ways, saying more why not do that rather than why 
do that? If there is something happening in a community that 
looks like our capabilities or our authorities would be helpful 
in providing relief, I think our natural inclination is to say, 
why not? Why not do that? How can we do this?
    In this event, it comes to deciding to distribute water to 
people who were not moved on. Once we have moved them out of 
positions of imminent peril and put them in places of temporary 
refuge, we added life sustainment to that set and said, let us 
keep water and food moving until people can be moved to final, 
or at least intermediate, places of refuge.
    We have a culture that speaks both DOD and law enforcement. 
We understand J systems. We understand N codes. We understand 
ICS and NIMS, and in some cases, we are a translator between 
those systems. That is helpful. I think there is a whole host 
of things. We take it seriously that the motto is semper 
paratus. I think we really do want to be ready. We look at our 
plans. We make sure our plans are adaptive. We make sure that 
our people understand that they are empowered to act consistent 
with the guidelines that have been understood ahead of time, 
and where they see something as a first responder that is not 
quite exactly what we describe, to take the right action when 
they get there, consistent with the concept of operations, 
saving lives, sustaining lives, and evacuating.
    Senator Carper. It is interesting. I say to my colleagues, 
every now and then, I visit the Amtrak shops back in Delaware 
where they work on the locomotives and repair the cars, and 
this one guy who works at one of the shops wears almost every 
day to work a T-shirt that says on the back, ``Attitude is 
everything.'' When I hear you talk about sort of the idea is 
not why can't we do something, but why can we, it reminds me of 
in the Navy, we had what I call a ``can do'' spirit. Basically, 
we felt we could do just about anything, get just about 
anything done. That was our attitude to it, and it sounds like 
it is very much the kind of attitude that pervades the Coast 
Guard.
    When I was privileged to be Governor of Delaware, we would 
await--not really await, we prepared for emergencies, whether 
hurricanes or Noreasters or blizzards or ice storms, whatever 
it was. We would go through a drill. We would prepare for, we 
would practice the emergency with the relevant agencies, 
Federal and State and local. We would also do, literally, every 
several hours during the course of the day as the disaster, 
natural disaster was approaching, we would do what we called a 
bridge call. We would have all the relevant agencies on the 
phone. It could be Coast Guard--it probably was. It included 
the weather folks. It included all of our National 
Guardspeople, our DEMA people.
    Did they have that kind of operation in Louisiana and 
Mississippi? How did it work?
    Admiral Duncan. In a variation of that. I made contact with 
the Governor's office in advance of the storm and then after 
the storm hit, I know that Captain Paskewich made contact at 
the local level. We had liaison officers in every place that we 
could think would be useful. Some places were not struck by the 
storm. We called those people back. Others were right at the 
center of things. We had Lieutenant Commander Sherry Banaesaw 
in the Mayor's office in New Orleans. That was a vital 
connection that gave us situational awareness of what was going 
on, what the Mayor understood was happening in the city, and 
how we could interact with that.
    We had liaison officers in the State Emergency Operations 
Center in Baton Rouge as well as in Mississippi. Some of those 
liaisons became pivotal in our understanding of other players 
and being able to interact with those on a regular basis, and 
that was a pipeline of sharing information back and forth.
    Within our organization, we had daily conference calls at 
0800 and 2000, eight and eight, if you will, myself and my 
boss, Vice Admiral Vivian Crea in Portsmouth, Virginia, and I 
had direct authority to call the Commandant at any time should 
I need to do that, and I did several times. So he had good 
situational awareness right to the very top of the 
organization, at least as I understood it.
    It was important, I thought, to remain forward in this 
event, to maintain situational awareness and be able to contact 
at that level so that when DOD moved into the community, the 
JTF, I was able to attend the Commander's conferences on the 
Iwo Jima and make sure that if we were able to provide support 
in alignment with the JTF's mission, we could do that, as well.
    So I think we looked for those opportunities for 
connectivity. There were regular, structured contacts. There 
were less formal contacts. And we held conference calls daily 
to make sure we had shared understanding of what was happening 
in each of these places.
    Senator Carper. Thanks. I think my time has expired. Thank 
you very much, Madam Chair, and again, to each of you, thanks.
    Chairman Collins. Thank you.
    Captain Jones, you referred in your testimony just briefly 
to the Coast Guard's effort to transport food and water to 
evacuees. It is my understanding that you could shed some light 
on an incident that a FEMA witness, Marty Bahamonde, described 
to this Committee where FEMA trucks with water and food in them 
were locked and in a Wal-Mart parking lot. Are you familiar 
with that incident?
    Captain Jones. Yes, Senator.
    Chairman Collins. Could you explain the Coast Guard's role?
    Captain Jones. On Wednesday, August 31, one of my officers, 
Lieutenant J.G. Williams, who was a liaison working with Task 
Force Eagle, the Louisiana National Guard Air Rescue Operation 
staged out of the Superdome, a parallel rescue operation to 
ours, linked up through this liaison officer. He had some face-
to-face with a local FEMA official who let him know that the 
ten 18-wheelers, five with water, five with food, were at the 
Wal-Mart on Airline Highway, which had already been used as a 
staging area for small boat operations the day prior, on 
Tuesday, August 30, that those trucks had arrived there. They 
were locked up, but they weren't yet being distributed.
    So Mr. Williams contacted my unit, and we tasked two H-53s 
from the Marine Corps from the U.S.S. Battan, which had offered 
their services to us, and we tasked those two Marine Corps H-
53s to go land at that parking lot. They cut the locks on the 
trucks. They loaded up, again, ten 18-wheelers full of food and 
water, distributed them to the landing zones we had designated 
at the causeway, the cloverleaf, the Superdome, and they also 
brought food and water back to my air station for further 
redistribution by helicopter to individual groups of survivors.
    Chairman Collins. So even though these trucks were FEMA 
trucks, it was the Coast Guard, assisted by the Marines, that 
actually got into the trucks because they had been abandoned 
and were locked, and then distributed the food?
    Captain Jones. Ma'am, I can't say how long those trucks had 
been there, but I can say it was a FEMA official who told our 
liaison officer about them, so I would say that the FEMA, Coast 
Guard, and Marine Corps together coordinated the distribution 
of that food and water.
    At the same time, on the same morning, a Coast Guard C-130 
brought in the first shipments of water to arrive at New 
Orleans International Airport, water purchased by Coast Guard 
officers on Tuesday, August 30. And additionally, on Tuesday, 
August 30, my junior officers had the idea to break into the 
Navy exchange retail store, which they did with the permission 
of the Navy commanding officer, loaded food and water into my 
pilots' pickup trucks, put it on Coast Guard H-60-Js, and flew 
it out to St. Bernard High School in St. Bernard Parish for 
distribution to 400 survivors who were stranded there in eight 
feet of water without food and water.
    Senator Carper. Madam Chair, that sounds like a real Navy 
``can do'' spirit. [Laughter.]
    Chairman Collins. They needed the Coast Guard's help, 
though, did you notice. [Laughter.]
    Admiral Duncan. The Navy are good people.
    Chairman Collins. They are, indeed.
    Captain Paskewich, I am curious why the Coast Guard pilots 
kept bringing people to the Superdome when the Superdome was 
becoming overwhelmed, short of water and food. The floodwaters 
were starting to encircle the Superdome. Why was the decision 
made to bring the rescued individuals to the Superdome? Or 
Captain Jones, if you know the answer to that.
    Captain Jones. Yes, Senator. The landing zones and staging 
areas in use is a very dynamic situation. Hour by hour, we 
would receive reports, the cloverleaf is closed. Don't bring 
anyone else. The Superdome is closed. Don't bring anyone else. 
The hospitals told us, don't bring anyone else unless they are 
on death's door. Then they told us, don't bring anyone else if 
they are on death's door.
    The problem was that all the staging areas, all the landing 
zones were full by the second day and not happy at all about 
receiving more people. They were short of food. They were short 
of water. They were short of medical supplies. So all of the 
staging areas were overwhelmed by certainly the second and 
third day after the hurricane. It was a question of there was 
no better alternative. If we took them to the cloverleaf after 
the Superdome turned us away, it would have been putting them 
down with 2,000 other of their friends and neighbors who also 
had no food and water and inadequate EMS personnel on scene to 
provide security.
    Chairman Collins. Did the Coast Guard express concerns to 
any Federal, State, or local officials that more shelters were 
needed and more places for sanctuary?
    Captain Jones. Yes, ma'am. I passed that concern up through 
my chain of command on a regular basis, and they passed that 
concern on through their contacts with the OEP in Baton Rouge. 
I also expressed that concern at the Superdome to the task 
force where they were staged there.
    Admiral Duncan. If I may add to that, ma'am----
    Chairman Collins. Admiral Duncan.
    Admiral Duncan. I was also at the Superdome where we 
discussed that concern and the need for providing better, more 
permanent relief. I also flew to Baton Rouge. I met with Mr. 
Brown to express personally my concern about us moving people 
to places of temporary refuge and them not being moved on to 
more permanent places. It led to our decision to equip every 
Coast Guard helicopter with a full suite of water, and we moved 
60 to 90 pallets of water a day that we purchased to people who 
were in need of it in very difficult circumstances.
    Chairman Collins. What was Mr. Brown's response when you 
raised this concern with him?
    Admiral Duncan. I began trying to contact Mr. Brown on 
Wednesday through my aide. He was initially unavailable, and we 
left messages through the day. A message was passed that if I 
could get to Baton Rouge, he would be happy to meet with me. I 
went to Baton Rouge and talked to him. He was about to do a 
presentation, and we had a short amount of time, 15 minutes or 
so, where I explained my observations from the theater, what I 
thought needed to be done next. I made reference to a Berlin 
airlift kind of an operation to get resources to people who 
needed it. He indicated interest and said, ``Let us get 
together again.'' He needed to do this press conference. ``Let 
us get together at eight.''
    I showed up at 8:10. I had been detained before getting 
there. The meeting was over. Others were leaving the trailer he 
was in, and we were unable to really meet to pursue that. His 
chief of staff said that my concerns had been heard and that 
they were going to act on those in some way. But I was unable 
to meet with Mr. Brown at that time. He had moved on to other 
things.
    Chairman Collins. Did anything change, from your 
perspective on the ground, after you brought those concerns?
    Admiral Duncan. That was Thursday evening. It appears that 
Friday, things did change. We did get recognition that water 
and food was necessary. We did see the JTF move resources into 
place that provided some relief that was needed up until that 
point.
    Chairman Collins. Were alternative shelters established as 
a result of that conversation?
    Admiral Duncan. I can't say that anything came as a direct 
result of that conversation. For all I know, some of these 
things were planned before I had a conversation with Mr. Brown. 
But the movement out of congested areas began, medical triaging 
at the International Airport, alternatively referred to as 
Moisant or Louis Armstrong, began. Water and food distribution 
was better supported. And it did appear at that point that we 
were starting to see a turn.
    Chairman Collins. Thank you.
    Senator Lieberman. Thanks. I want to go back to the 
questions of communications, which are very important, 
obviously critically important, in disaster response. Some of 
the most pathetic moments in watching what happened and reading 
afterward in New Orleans was the inability, for instance, of 
the Mayor to communicate with his personnel, etc.
    Captain Paskewich, you were on both Coast Guard flights 
with Mr. Bahamonde and have indicated that you, too, were 
clearly able to see significant flooding in New Orleans at the 
time. Admiral Duncan, you have indicated that you were aware of 
significant flooding from a damage assessment flight that you 
took about 5 p.m. on that same Monday, the day of landfall, 
August 29.
    I wanted to ask you both how and when did you communicate 
that information to your superior officers in the Coast Guard, 
to the Louisiana Emergency Operations Center, or to any other 
Federal agencies or operations centers?
    Admiral Duncan. Do you want to take it?
    Captain Paskewich. Yes, sir.
    Senator Lieberman. Captain, why don't you start.
    Captain Paskewich. I was certainly on both flights with Mr. 
Bahamonde, and when I came in from Baton Rouge, or from 
Alexandria via Baton Rouge, and went down the river to survey, 
do a quick scan, and then headed across the city to the 
airport, at the Superdome to pick up Mr. Bahamonde, he wanted 
to go up on an overflight, do an assessment of the area just 
like I did. It was our first opportunity to get a nice, good, 
detailed survey or good look of the area.
    We flew up to the north. We were on an H-60. We went up 
toward where my station was, and you could see houses burning. 
You could see my station was intact, and I could see intense 
flooding in the Lakeview neighborhood area, up to the rooftops. 
At that point, you could also hear chatter on the radios that 
there was thousands of people on the rooftops that needed to be 
saved.
    Senator Lieberman. Where was that coming from?
    Captain Paskewich. That was coming from--to the 60 
helicopter. I think that was general, other helicopters----
    Senator Lieberman. Other helicopters were flying, right.
    Captain Paskewich. Correct. There were multiple helicopters 
in the area.
    Senator Lieberman. Right.
    Captain Paskewich. I counted four Coast Guard helicopters 
within my own visual, and then the H-60 pilot asked permission 
if he could bring us back because they are a big asset. They 
can rescue a lot of people. So our first flight was about 10 
minutes.
    Then we went back to the Superdome and told him we would 
get him back up again----
    Senator Lieberman. You are talking about Mr. Bahamonde?
    Captain Paskewich. Yes, sir.
    Senator Lieberman. On that first flight, could you see that 
the levees had broken?
    Captain Paskewich. We went right over the area where the 
levees were broken, and I am pretty positive Mr. Bahamonde saw 
the levee breach. I was focused on the flooding in the 
neighborhoods----
    Senator Lieberman. Sure.
    Captain Paskewich [continuing]. And I was trying to get a 
visual as to how many assets we needed.
    Senator Lieberman. Right.
    Captain Paskewich. The second flight we took with one of 
Captain Jones' 65 crews. We went east, New Orleans East and 
Slidell. I believe we were the first ones to see the twin span 
drop, and then Slidell was under water. New Orleans East was 
very much under water, as well, Shalmet, you could see the 
Ninth Ward off in the distance. Intense flooding. So north of 
I-10, intense flooding, and then Shalmet, Ninth Ward south, 
intense flooding.
    Senator Lieberman. So did you report what you saw to any 
superiors?
    Captain Paskewich. Yes, sir. When we landed at the Dome, we 
made--we called back three separate times----
    Senator Lieberman. Who did you call?
    Captain Paskewich. I called up our Incident Command Post in 
Alexandria, relayed information that there was intense flooding 
in the area and that we needed to marshal as many resources, 
both aircraft and small boats, as many as possible because this 
would be an extended, protracted search and rescue effort.
    Senator Lieberman. Admiral Duncan, I am interested in--I 
presume you were a recipient of some of that information that 
Captain Paskewich reported?
    Admiral Duncan. Yes, sir.
    Senator Lieberman. Then I am curious. I know you did speak 
to Deputy Secretary Jackson and apparently you were in 
conversations with, I am sorry, the Commandant and Secretary 
Jackson.
    Admiral Duncan. Yes, sir, that is correct.
    Senator Lieberman. You were in conversations with the 
Commandant and senior Coast Guard officials, so just help me 
with that chain of command----
    Admiral Duncan. Yes, sir.
    Senator Lieberman [continuing]. To the best of your 
recollection, as to communication.
    Admiral Duncan. Yes, sir. I moved on Sunday to Houston to 
be in a position to come in immediately behind the storm.
    Senator Lieberman. Right.
    Admiral Duncan. When the storm conditions were abating, I 
flew to Alexandria, took a brief from--this is the tie-in with 
Captain Paskewich. His information goes to this IMT in 
Alexandria. I went to see what was known across the entire 
theater. So I tried to find out what was happening in Sector 
Mobile, which covered the Mississippi Coast, and also what was 
happening in Louisiana----
    Senator Lieberman. So this is Monday evening?
    Admiral Duncan. Monday afternoon, sir.
    Senator Lieberman. Monday afternoon, OK.
    Admiral Duncan. Two o'clock in the afternoon, I took off 
from Houston, arrived probably about, I think it says about 
three o'clock or so--three o'clock. I am sorry, 2:30. I 
received initial reports from whatever was known by our folks 
or any source that we could--news, anything we could find----
    Senator Lieberman. Right.
    Admiral Duncan [continuing]. Preparatory to my flight going 
into the area. My notes indicate that at that time, there was 
some reports of overtopping. I believe the Industrial Canal was 
mentioned. We were prepared for flooding. Myself and my chief 
of operations got on a flight with a petty officer, and we took 
a 60, a Falcon jet out down over Grand Isle, which is on the 
coast, out over Loop, which is a substantial oil production 
facility out in the Gulf, and then up the Mississippi River, 
over the City of New Orleans, and then to the east along the 
coast until we got to Bayou La Batre, Alabama, turned around 
and came back and landed.
    At that point, I had personally seen very substantial 
flooding, not really able to attribute, I think in my mind, 
what caused that flooding at this point----
    Senator Lieberman. Right, but you saw the effect----
    Admiral Duncan. Yes, sir. Absolutely.
    Chairman Collins. And you reported that to the Coast Guard 
Commandant?
    Admiral Duncan. That is correct. I contacted the--in fact, 
the time I have is--I took a brief from the sectors at nine 
o'clock, when I landed. Then I called the Commandant and the 
Area Commander, and the notes I have say it was at 10 o'clock, 
2200, and I discussed with Admiral Crea and the Commandant my 
observations, supplemented by what I was able to gather from 
others who were doing other detailed assessments on the ground.
    Senator Lieberman. Yourself, you did not speak to Secretary 
Jackson in DHS----
    Admiral Duncan. I did not, no, sir.
    Senator Lieberman. But do you have any idea what the 
Commandant reported to Secretary Jackson?
    Admiral Duncan. No, sir, I would----
    Senator Lieberman. We will have to talk to him directly.
    Admiral Duncan. If I could also add----
    Senator Lieberman. Please.
    Admiral Duncan [continuing]. Because there is another 
element to your question, if I might, sir----
    Senator Lieberman. Go ahead.
    Admiral Duncan [continuing]. How do we pass that 
information to others.
    Senator Lieberman. Yes.
    Admiral Duncan. That information, the normal tie-in at the 
State Emergency Operations Center to all the players, including 
the State, who has primacy in responding to incidents in the 
State, of course, is to pass that information up through the 
OEP, or the Emergency Operations Center in Baton Rouge. That 
information was passed through to them, and our sit-reps, our 
situation reports, which lag, of course, by an hour or two in 
typing it up and sending it along, try to capture the detail of 
these observations and any other source of information that 
might be available to us and send that up to others, as well, 
and those would have been developed and sent to the OEP, which 
is the Louisiana Emergency Operations Center.
    Senator Lieberman. OK, I appreciate that. I want to just 
quickly ask one more question and go to you, Captain Jones; and 
Captain Paskewich, if you want to add. How were you and your 
personnel receiving information about--communicating with one 
another, but also receiving information about who on the ground 
needed help, or were you just doing observation when you saw 
people on the rooftops?
    Captain Jones. Senator----
    Senator Lieberman. I know that the Coast Guard itself had 
some communication difficulties under the circumstances.
    Captain Jones. Senator, regarding communications, 
communications between aircraft was not degraded in any way, 
other than the volume of radio calls being made, which simply 
made for a short wait in having to get a phone call in, or a 
radio call in. Radio communications between Coast Guard 
aircraft and Coast Guard ground stations were degraded because 
of the fact that the coastal antenna, the high sight antenna 
had been destroyed in many cases.
    Senator Lieberman. Yes. There is a lesson right there.
    Captain Jones. Yes, sir. But I would add that I think we 
are always working to improve the technology. The technology is 
always susceptible in a catastrophic incident like this. The 
primary operational concept that we employ is that all of our 
forces in the aviation world should be ready to work without 
communications for extended periods of time. The briefing I 
give my crew prior to deployment in response to any hurricane, 
the briefing I gave all of my air crew on August 28 when we 
left New Orleans in evacuation to preposition for a response to 
Katrina, was that each air crew should be prepared to operate 
independently for up to 72 hours with no contact with me, no 
contact with the district, have to find our own food and water 
and shelter, have to find our own jet fuel. Now, I told them, I 
hope that is not the case, but you should all be prepared to do 
so, and they were prepared to do so. So if you have people that 
are extremely well trained, extremely well equipped, and 
understand the commander's intent and what the mission 
objectives are, they can operate without communications without 
floundering about.
    In regards to mission tasking, there were two primary ways 
we tasked missions. There were literally hundreds each day, if 
not thousands, of specific mission requests that came in. 
Evacuate this many people----
    Senator Lieberman. In this particular area?
    Captain Jones. Yes, sir. Evacuate people from this 
hospital, from that hospital, this high school, this community 
center, this house. There were hundreds of phone calls coming 
in, to both the district INT, the sector INT, the Baton Rouge 
EOC, being funneled through our Coast Guard liaison officers in 
each of those places either to Eagle Base, to the Coast Guard 
liaison officer working with the National Guard to task 
National Guard and DOD helicopters, or to my air station, or to 
Coast Guard Aviation Training Center, Mobile, Alabama, which 
was also launching mass helicopter rescue operations. So there 
were many targeted specific distress calls coming in and 
everyone else was assigned to general areas where there were--
for the first 4 days, Senator--were so many thousands of people 
that were readily apparent to be rescued, we didn't need to 
assign them to specific homes or blocks.
    Senator Lieberman. Admiral Duncan, did you want to add 
anything?
    Admiral Duncan. If I may just elaborate, Senator, a 
parallel effort was going on at the State Office of Emergency 
Preparedness, so 911 calls were coming in through there, as 
well. Those were dispatched to appropriate liaison officers to 
have their agency respond. So if the call was for a State 
police response, the State police desk was given that ticket. 
If it looked like an aviation response was appropriate, then we 
would get that and pass that down. So these parallel systems, 
really quite a number of things coming.
    Senator Lieberman. Thank you.
    Chairman Collins. Thank you.
    Captain Jones, I just want to clarify and follow up on the 
discussion we had of the Coast Guard's role in trying to get to 
the FEMA trucks at the Wal-Mart that contained vitally needed 
food and water and what FEMA knew and didn't know about these 
trucks. Our staffs recently interviewed William Lokey. Are you 
familiar with Mr. Lokey?
    Admiral Duncan. No.
    Chairman Collins. He is the FEMA official who was 
designated as being the Federal coordinating officer, so the 
key person for logistics. We told him about the Coast Guard, 
and you have elaborated the help that you got from the Navy, 
also, in coming to the trucks, breaking the locks, getting the 
desperately needed food and water out of them, and airlifting 
them to the Superdome.
    My staff asked Mr. Lokey if he was aware of this. He said, 
``No, this is the first that I have heard of that.''
    The staff went on to say, ``You don't know anything about 
trucks being abandoned in the Wal-Mart parking lot?''
    He responded, ``It doesn't surprise me, but this is the 
first time I have heard of trucks abandoned in the Wal-Mart 
parking lot, and I am glad they cut the locks and helped get 
the food over there. They did the right thing.''
    Question, ``Is it possible in your mind that these could 
have been trucks that were either contracted for by FEMA, 
either directly or from mission assignment?''
    ``I do not know. I didn't think we had any mission-assigned 
trucks because most of our trucks and logistics people directly 
contracted with their contractor to provide, but I would be 
interested to know about this. Literally, it is the first time 
I have heard of having to go commandeer food in an abandoned 
parking lot.''
    I tell you about this because I think, once again, this 
shows the disconnect of FEMA not knowing what assets they had, 
where they were, and how they could be tapped. Obviously, Marty 
Bahamonde knew about these trucks, or had seen these trucks, 
but the individual at FEMA who should have been aware of this 
was not. Since I think your testimony created some doubt on 
that point, I just wanted to clarify that.
    Captain Jones. Yes, ma'am. I don't know anything about the 
history of those trucks, how they came to be there, how long 
they had been there, or if they were truly abandoned or simply 
there was someone on the way to get the materials and our 
helicopters, our tasked helicopters got there first. I don't 
know. I only know that a FEMA person who spoke face-to-face 
with one of my officers who worked with the Marine Corps to get 
a helicopter over there and distribute that desperately needed 
food and water. I really can't speak as to whether it was truly 
abandoned and forgotten, or whether that was part of the 
process. The trucks may have just arrived there and FEMA worked 
with the right people, which is the Coast Guard, to get it 
distributed.
    Chairman Collins. Well, I think it is clear from--and I 
just read you an excerpt of the transcript, it is much longer--
that the individual who should have known did not, so that, in 
fact, those were trucks that were lost track of, which is very 
troubling in this situation.
    Admiral, as you know, this Committee is studying the 
mechanics of the National Response Plan and the National 
Incident Management System and its implementation in response 
to Hurricane Katrina. Senator Lieberman has often said that 
this was the first big test since September 11 and the system 
failed.
    It appears, based on our initial investigation, that there 
was considerable confusion over the various roles played by 
different individuals at all levels of government under the 
National Response Plan and that some individuals involved in 
the response efforts may not have been adequately trained to 
the National Incident Management System standards. What are 
your observations?
    Admiral Duncan. I think, in large part, there is truth in 
that observation. The National Response Plan was barely 8 
months old when Katrina hit, so I think it is not surprising 
that we would find different levels of understanding in 
different agencies. It was not a huge shock to the Coast Guard. 
It operated under the Federal Response Plan previously and had 
helped with drafting elements of the National Response Plan for 
which we would be coordinating officials or coordinating 
agencies. We have significant experience in oil pollution, 
where we have learned how to deal with the National Incident 
Management System and ICS. We have since incorporated that for 
all hazards, all events. So there is a fairly high 
understanding of those concepts in the Coast Guard.
    One of the lessons learned I come away with for our 
organization is we want to push that down further. We want to 
make sure that petty officers at a lower level are more 
conversant with ICS and take less ramp-up time when they show 
up in an organization like that. So that is a lesson learned 
for us, to develop that expertise at a lower level.
    I guess I would say there is merit in the National Response 
Plan. I think elements of the Response Plan were more effective 
than others, but I do think it provided a good framework for, 
for instance, the ESF organization, mission assignments, the 
way that the government looks at a very large problem that cuts 
across the scope of all agencies that might bring something to 
it. I think it is a very good framework, and as we get more 
conversant in it, I think we will probably fine-tune it or 
maybe find that it is exactly what we need.
    But the National Response Plan, I think, is a good 
framework for starting. We did find different levels of 
understanding and, frankly, different levels of usage of it 
among some of the participants.
    Chairman Collins. Thank you. Senator Lieberman.
    Senator Lieberman. Thanks. I want to follow up on the last 
series of questions asked about communications, and this is in 
the spirit of lessons learned.
    In terms of the antennas going down and inhibiting 
communication between your planes in the air and base 
operations or locations, what are the alternatives that we 
might pursue in the future there?
    Admiral Duncan. Yes, sir. One of the things that we did in 
advance of the storm was to take specialized communication 
equipment and place it in areas we thought would be necessary. 
That was part of the dialogue I had with my immediate 
supervisor, which is Vice Admiral Crea, the Area Commander.
    Senator Lieberman. Right.
    Admiral Duncan. We took things called a TMAC and a TMIC--
they are specialized communication bands. We put them in 
Mobile, which was expected to be an impact area. We moved one 
to Alexandria. And we reestablished communications through 
those, not the kind of robust communications that we would have 
on an ordinary basis, but enough to move through an emergency 
until we could restore other things. We found that text 
messaging worked.
    Senator Lieberman. Interesting.
    Admiral Duncan. Yes. I was the Group Commander in 
Charleston, South Carolina, when Hurricane Hugo hit, and I 
thought the first thing that was going to go was my cell phone. 
As it turned out, the cell phone towers remained up, and we 
were able to communicate with what was then pretty new 
technology.
    Senator Lieberman. But they didn't here, did they?
    Admiral Duncan. They did not, no.
    Senator Lieberman. No.
    Admiral Duncan. And we ended up--I am wearing a phone on my 
belt. This is the third phone I have had since August. It is an 
area code not affected by the storm, and I am able to 
communicate very nicely with that. It is in Northwestern 
Louisiana. The 504 area code was greatly impacted. My wife's 
phone, it was difficult to find out where she was.
    Senator Lieberman. Yes.
    Admiral Duncan. But that was a matter of trial and error to 
try and find something we could bring up as we experienced 
problems.
    Again, communications are always one of those things you 
wish were better, and I know that we have mobile communications 
van projects that are very near completion that we hope will 
provide that kind of----
    Senator Lieberman. I appreciate that. The staff just told 
me that they have learned that the helicopters were able to 
intermittently use your own C-130s or order Customs and Border 
P-3s as communications centers. Tell me a little about that.
    Admiral Duncan. I will address it broadly and ask Captain 
Jones, as the aviator among us, to do the details.
    The air traffic management package, again, with that many 
helicopters in the air, every time I flew in there, I was 
looking out the window to make sure there wasn't a helicopter 
on the next roof over. That air traffic management piece was 
done by two aircraft, a Coast Guard C-130 and a Customs P-3 in 
an elliptical orbit over New Orleans, much like an AWACS kind 
of a thing.
    Senator Lieberman. Was this part of the plan, in other 
words, that you----
    Admiral Duncan. It was perceived ahead of time and put into 
place. Those aircraft showed up as ordered before the storm.
    Senator Lieberman. Right. Unique to preparation for 
Katrina, or is that part of the continuing plan?
    Admiral Duncan. I think any time we expect a congested air 
space, we make an effort to make sure that that is there, and 
the Navy brought assets with them when they came, as well, that 
could take care of that.
    If I might throw that to Captain Jones to describe the 
details of that communications.
    Senator Lieberman. Sure.
    Captain Jones. The Navy provided an E-2-C Hawkeye, also, 
for that role, but primarily, they benefitted us by not only 
reeling information--if we had to send out a broadcast to all 
helicopters, we sent it to the overhead aircraft, and then they 
could talk to an on-scene helicopter better than we could from 
my operations center. But also, they were able to do phone 
patches, so if I needed to talk to the District IMT in St. 
Louis, we could contact the overhead fixed-wing aircraft from 
10,000 feet, and they could do a phone patch and actually get 
on a land line in St. Louis.
    Senator Lieberman. Let me ask a different question--
Captain, did you want to say something?
    Captain Paskewich. Could I add just a couple more things on 
the communications, sir?
    Senator Lieberman. Please.
    Captain Paskewich. There were some novel approaches to 
overcoming some of the limitations. We did actually get a ham 
radio operator in, which turned out to be effective. We had our 
own----
    Senator Lieberman. This is after you saw how bad it was?
    Captain Paskewich. Yes, sir. They came in within the first 
couple days.
    Senator Lieberman. Right.
    Captain Paskewich. And then we had a group of auxiliarists 
who actually went out to one of our towers to establish the 
link between Baton Rouge and New Orleans. This key tower 
halfway in between, once it was up and running, we could have 
the communications leap-frogged through that site to our 
station, once we regained access to our station. And out-of-
state cell phones actually worked quite well, if you had that 
ability.
    Senator Lieberman. Again, a real sign of resourcefulness.
    You know, the contrast, and I don't want to ask you to talk 
about this, but--maybe I will ask you a different question, the 
contrast between how you responded and others did.
    Has there been any after-action work done within the 
Department of Homeland Security about, for instance--in 
preparation for the next, or even in implementation around 
Hurricane Rita, about you and FEMA, for instance, working more 
closely together? I mean, here you are in the same Department 
and, honestly, a night and day--that may be unfair because of 
different histories, etc.--in the reaction of the two agencies, 
but what has happened since all this happened in Katrina?
    Admiral Duncan. I think we are capturing many lessons 
learned, pages and pages of things. Some are small, single 
points of failure or to be avoided, lots of things like that, 
the business about pushing training down to a lower level in 
ICS in our community.
    When Rita approached, we put the word out that we were 
going to treat this as an expeditionary event. We were not 
going to assume that anything would have survived the strike. 
There would be nothing to go back to. Bring everything you need 
with you. Bring communications, bring food, water, bring RVs. I 
think I am the largest owner of RVs in the government right 
now. We try to provide our ability to move into an area and 
sustain operations for a long period of time.
    Efforts to integrate with FEMA and others in DHS and others 
in the government, I think, are being looked at and probably 
smoother. We put liaison officers--I put a Coast Guard Admiral 
in the PFO organization before Admiral Allen was assigned to 
try to make that kind of connectivity during the event. Admiral 
Acton was assigned to be Mr. Brown's assistant earlier on in 
that.
    We did the same thing with Hurricane Rita. We actually 
moved Admiral Acton over to Rita to be part of that PFO cell 
and to also make the connections with the Joint Task Force as 
DOD came in with their own capabilities and their own mission 
sets. So interconnectivity, interoperability are very big on 
our list of lessons learned.
    Senator Lieberman. Let me ask you this final question, 
maybe if each of you want to offer a quick answer. I think one 
of the reasons you are as good as you are is you probably don't 
rest on your laurels and you are always asking, what could we 
have done better here? So I am going to give you an 
opportunity, each of you, to--and maybe this time I will start 
with Captain Paskewich and go around the other way--what went 
wrong or what lessons did you learn for the next time?
    Captain Paskewich. I would say it is a strength, and at 
times we are pretty tough on ourselves. In fact, we are 
incredibly tough on ourselves, and we constantly reevaluate 
where we can improve, and we have captured lessons learned 
across a whole broad spectrum, not just communications. There 
are whole lessons learned within that whole communications 
segment, but organizationally, what do we need to do better? 
How can we set up? How can we connect the dots? I call it 
connecting the dots between all the agencies. It is very 
important to me.
    The liaison officers are key people, and what I take out of 
this is that that is one of the major bonds that has to take 
place and we have to do it even better----
    Senator Lieberman. Liaison----
    Captain Paskewich. Liaison officers. For instance, we had 
assigned officers at the City Office of Emergency Preparedness. 
We had SAR controllers at the State level, trying to stay 
linked with those folks and linked with other key agencies who 
we overlap with and interact with. That is a key, and I think 
if I take anything away from that, I want to build upon that.
    Senator Lieberman. Great. Captain Jones.
    Captain Jones. Honestly, Senator, I think Captain Paskewich 
hit it on the head when he said we beat ourselves up. We are 
perfectionists in the Coast Guard. After a miraculous rescue, a 
crew will sit around and agonize over what they should have 
done better.
    On the first day of Katrina response, I flew 9 hours and my 
rescue person was Dave Foreman, a young man who is incredibly 
heroic, hanging from gutters at 10 o'clock at night when I was 
hovering on night-vision goggles, smashing windows out of a 
second-story building over by Lakeview to try to get an elderly 
woman out who we then had to abandon because he just couldn't 
get her out. She was immobile, and it was just not physically 
possible to get her out that night in those conditions.
    This is the same young man who, 2 years ago, you may 
remember the Bow Mariner rescue mission, the 600-foot tanker 
that sank off Cape Henry at Chincoteague with highly-toxic 
chemicals aboard, and he went into that water in January in the 
Atlantic Ocean with highly toxic fumes that made the helicopter 
crew pass out and saved six lives, and he beat himself up after 
that. I couldn't save anyone else. And we have to just slap 
ourselves sometimes and say, you just did the most successful 
rescue operation in American history, so don't beat yourself up 
so much.
    Honestly, the factors that the Admiral and Captain 
Paskewich have pointed out, our ability to interact with other 
agencies, our ability to empower our people to make decisions 
on the fly, to look at what needs to be done and make those 
decisions, and we can empower them to do that because of the 
fact that they are so well trained and they are experienced and 
they are local first responders who are part of the local 
communities and know the local officials and know where the 
local geographic landmarks are.
    There were times after Katrina where we sat around and we 
were practically saying, gee, what could we have done more? 
Could we have plugged the levees ourselves? Could we have built 
the tent cities ourselves? My Command Master Chief had to slap 
me one time and say, ``Captain, we did a hell of a job.''
    Senator Lieberman. You did a hell of a job. Admiral Duncan.
    Admiral Duncan. Yes, sir. It would make your hair hurt, 
honestly, to go through the details of lessons learned. We had 
a single point of failure in a server in one of our subordinate 
commands that provided the routing for our E-mail, and it 
either went underwater or ran out of fuel. Those pretty much 
are concurrent events at this point. And we said, man, that 
cost us a couple of hours in restoring, rerouting through St. 
Louis, where we put our COOP, our E-mail. So we are really hard 
on ourselves that our E-mail went down, which was a significant 
thing. We really wanted that to be up.
    So that is the level of things. Just briefly, we have 
broken these lessons learned down into people, training, 
equipment, supply, infrastructure, and information, and then 
there are subsets under all of those and a good part of this 
book are lessons learned.
    Senator Lieberman. That is great. And I presume you are not 
only working that over internally, but you are sharing it with 
the rest of DHS?
    Admiral Duncan. Yes, sir. Captain Paskewich made a good 
point. One thing that we did this time was we took commanding 
officers out of command positions in a non-impacted area, the 
Texas coast, for instance, and moved them into those key 
liaison positions and let the executive officers fleet up and 
run the show in day-to-day operations. So we ensured that the 
quality of people we had interacting with other agencies were 
our top command-level people. That was a significant event. 
That is the best case that I think we are going to offer for 
Coast Guard-wide operations.
    Remain flexible. For instance, it has struck me as we are 
going through this that we probably want to think about putting 
a fluorescent mark on the top of roofs of houses that we had 
taken people off of, and that looked like an adaptation in the 
plan. I looked just like you do now, sir. That is a good idea.
    Senator Lieberman. Yes.
    Admiral Duncan. It turns out not to be a good idea in 
practice. Now, you wouldn't have known this, sir----
    Senator Lieberman. You tricked me there. [Laughter.]
    Admiral Duncan. Well, it was my idea, and sometimes the 
Admiral doesn't have good ideas, but if he talks to people, he 
finds out that the rescue swimmers are going down, and they 
say, we have marked this house, but flying back, we saw new 
people on this house, people who just decided to come out now, 
or people who have moved up from other areas and found easy 
access to this roof. So what looked like a promising variant of 
that plan, in practice, we were quick enough to recognize it 
was putting people at risk if we went forward with that. There 
would be people there again. So we scratched that.
    So remaining agile, questioning fundamental assumptions, 
listening to the petty officer who is hanging from a wire rope 
and seeing what his experience is. Captain Jones can tell you 
that we put axes on his helicopters and then we got electric 
saws so that we could get into roofs of houses--not standard 
equipment on his helicopters, developed on the fly.
    So that is a lesson learned that we will probably put in 
and offer as a best practice for other air stations in other 
hurricane areas.
    Senator Lieberman. Fantastic. Thanks very much. Great job. 
We are very grateful to you. I was thinking, this is probably 
the ultimate expression of gratitude from American society 
these days, is that we should go from ``NYPD'' to a television 
series called ``USCG.'' [Laughter.]
    Admiral Duncan. Captain Paskewich has already had enough 
press. [Laughter.]
    I have to talk to him through an agent. He has dark 
glasses. Please don't make him harder to work with, sir. 
[Laughter.]
    Senator Lieberman. I wasn't thinking of him playing 
himself, however. [Laughter.]
    Chairman Collins. Thank you very much for your testimony 
today. Admiral Duncan, I would ask that you share with the 
Committee the lessons learned document. That would be very 
helpful to us.
    Admiral Duncan. I would be happy to do that, Madam 
Chairman.
    Chairman Collins. And again, I want to join Senator 
Lieberman in commending the Coast Guard for a truly outstanding 
performance. I think that we can learn a lot from the 
experience with Katrina by looking at the Coast Guard's 
preparedness and agile response. The constant innovation as you 
were going along is really impressive, and that is what we need 
to learn and adapt for other agencies. So we look forward to 
working with you further as we continue our investigation, and 
I thank you very much for your testimony today and your service 
to the country.
    This hearing record will remain open for 15 days, and this 
hearing is now adjourned.
    [Whereupon, at 11:20 a.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              


                PREPARED STATEMENT OF SENATOR LAUTENBERG

    Madam Chairman, thank you for calling this hearing and giving us an 
opportunity to examine one of the few bright spots in the Federal 
response to Hurricane Katrina.
    I have always admired the U.S. Coast Guard. Before coming to the 
Senate I served on the Port Authority of New York and New Jersey, and I 
know what a vital role the Coast Guard plays in the shipping industry 
which is so important to our economy.
    The Coast Guard is responsible for ensuring that ships are 
seaworthy. Since 9/11, they have been given additional responsibilities 
in the war on terror, but not commensurate resources. New port and 
maritime security duties increase the myriad activities which the Coast 
Guard performs. They have always protected the marine environment 
through enforcement of our laws and treaties, and guarded our marine 
resources.
    We have always looked to the Coast Guard in times of emergency, to 
protect the lives and safety of citizens.
    During Hurricane Katrina we witnessed some deplorable scenes. Many 
aspects of the Federal response were inexcusable. But we also saw 
heroism on the part of Coast Guard personnel.
    I especially want to note the efforts of two helicopter rescue 
crews from Atlantic City. I ask that their names be placed in the 
record for this hearing:
        CDR Daniel Taylor
        LT Kevin D'Eustachio
        AET2 Troy Maxwell
        AST3 Josh Rice
        LCDR Kurt Richter
        LT Eric Purdue
        AST1 Craig Miller
        AMT2 Clinton Wood
        AMT2 Adam Wolfe
        AMT3 Shane Sprague
    The first crew arrived in New Orleans starting the night the 
hurricane struck, and by the next day had rescued 24 people, including 
a pregnant woman who went into labor aboard their helicopter. Her baby 
was delivered safely. The same crew also evacuated a family with an 
infant. The second crew arrived shortly thereafter and commenced 
several days of relief and rescue operations, which resulted in the 
rescue of 50 people, 2 dogs, and the delivery of 150 pounds of food and 
water.
    These heroic acts were multiplied many times over. Coast guard 
rescue crews from across the nation saved orevacuated more than 33 
thousand victims of Hurricane Katrina.
    This tragedy brought out the best in the United States Coast Guard. 
Unfortunately, the current Administration has failed to support 
providing the necessary resources for the Coast Guard, both for new 
equipment and for operations.
    A plan to upgrade and renew the Coast Guard's long-range fleet was 
adopted several years ago, but it as not been fully funded. As a 
result, many Coast Guard vessels are outdated, affecting their ability 
to support operations in the Gulf as well as non-security operations.
    The Coast Guard was there when the victims of Hurricane Katrina 
needed it. If we expect it to be there during the next emergency, we 
need to be there for the Coast Guard.
    We must finish the job of upgrading and modernizing the Coast Guard 
fleet, and we must ensure the Coast Guard has adequate resources to 
conduct both their homeland security missions as well as their 
traditional missions. Thank you.

[GRAPHIC] [TIFF OMITTED] T4929.001

[GRAPHIC] [TIFF OMITTED] T4929.002

[GRAPHIC] [TIFF OMITTED] T4929.003

[GRAPHIC] [TIFF OMITTED] T4929.006

[GRAPHIC] [TIFF OMITTED] T4929.004

[GRAPHIC] [TIFF OMITTED] T4929.005

[GRAPHIC] [TIFF OMITTED] T4929.007

[GRAPHIC] [TIFF OMITTED] T4929.008

[GRAPHIC] [TIFF OMITTED] T4929.009

[GRAPHIC] [TIFF OMITTED] T4929.010

[GRAPHIC] [TIFF OMITTED] T4929.011

[GRAPHIC] [TIFF OMITTED] T4929.012

[GRAPHIC] [TIFF OMITTED] T4929.013

[GRAPHIC] [TIFF OMITTED] T4929.014

                                 <all>

</pre></body></html>
